No.

. FILED
APR 2 6 2019

IN THE
SUPREME COURT OF THE UNITED ST; tTES

Tobie as TOBIE JENKINS and
William as WILLIAM JENKINS
Pro Se Petitioners,
vs
LEO COREY CHANCE, et al„
Respondents.

On Petition For Writ of Certiorari
To The United States Court of Appeals
For The Tenth Circuit Court
PETITION FOR WRIT OF CERTIORARI

Appellate Civil Action No. 18-1216
District Court No. L17-CV-02761-STV

TOBIE & WILLIAM JENKINS
1207 BRIARHOLLOW LANE
HIGHLANDS RANCH-CO-80129-U.S.A.303-229-7609 dinojenkins@comcast.net
PRO SE LITIGANTS

Page i of iv

QUESTIONS PRESENTED
Does This Court possess verifiable Constitutional and Congressional power to
interpret unwritten Congressional Law and alleged Legislative “voids”.

1. Does This Court possess verifiable power to merge past, present and future State
Legislation with USCS 42 § 1983 in the absence of explicit Constitutional and
Congressional Authority to execute such mergers.

2. Does This Court possess verifiable power to subject USCS 42 § 1983 to State
Legislation without explicit Constitutional and Congressional Authority.

PARTIES TO THE PROCEEDINGS
PETITIONERS:
Tobie as TOBIE JENKINS and
William as WILLIAM JENKINS
1207 BRIARHOLLOW LANE
HIGHLANDS RANCH-CO-80129-U.S.A.303’229’7609 - dinojenkins@comcast.net
(Pro Se Litigants)
APPELLANTS:
LEO COREY CHANCE,
LEO MICHAEL HEIDINGER,
LEO ATTILA DENES,
LEO NICHOLAS ARNONE
DOUGLAS COUNTY SHERIFFS OFFICE

Page i of iv

Page ii of iv

TABLE OF CONTENTS:

QUESTIONS PRESENTED-

Pgi

PARTIES TO THE PROCEEDINGS-

Pgi

TABLE OF CONTENTS-

Pg ii

BRIEF LIST OF AUTHORITIES-

Pgs iii to iv

BRIEF TABLE OF CONTENTS
INTRODU CTION-

PgOl

JURISDICTION-

Pg 02

STATEMENT OF THE CASE-

Pg 02

MOVANTS’ UNDERSTANDING OF USCS 42 § 1983

Pg 02

MOVANTS’ CONTENTIONS-

Pg 03

MOVANTS’ CONCLUSION-

Pg 04

REMEDY DEMANDED-

Pg 07

HISTORY OF THE ALLEGED POWER TO SUBJECT USCS 42 § 1983 TO
STATE LEGISLATION-

Pg 07

JUDICIAL EVIDENCE-

Pg 10

IF USCS 42 §1983 REQUIRES A STATUTE OF LIMITATIONS, SUCH
LIMITATIONS CAN BE BORROWED FROM FEDERAL LAW-

Pg 23

END OF BRIEF-

Pg 24

LITIGANT INFORMATION

PG 25

Page ii of iv

A

Page iii of iv

APPENDIX
DISTRICT COURT ORDER-

Appendix Pg 03

TENTH CIRCUIT ORDER-

Appendix Pg 21

BRIEF TABLE OF AUTHORITIES
FEDERAL CONSTITUTION-

Pgs 07, 08, 09, 13, 16, 17, 18, 19

JUDICIARY ACT OF 1789-

Pgs 07,15, 16, 17, 18, 19, 20

USCS 18 § 242. Deprivation of rights under color of law

Pgs 05, 06

USCS 18 § 351(e) (assaulting a Member of Congress)-

Pgs 06, 23

USCS 18 § 3286 Extension of statute of limitation for certain terrorism
offenses (a)-

Pg 25

Enforcement Act of 1871-

Pgs 04, 09, 20, 22, 24

USCS 42 § 1983-

Pgs 01, 02, 03, 04, 05, 07, 10, 11, 12, 13, 16, 18, 24

USCS 42 § 1986-

Pg 04

USCS 42 § 1988-

Pgs 05, 08, 11, 16

42ND Congress and President Ulysses S. Grant-

Pgs 03, 24

Bauserman v. Blunt, 147 U.S. 647-1893-

Pgs 14, 15

Board of Regents v. Tomanio, 446 U.S. 478Campbell v. Haverhill, 155 U.S. 610-1895-

Pg 12
Pgs 13, 14

Leffingwell v. Warren, 67 U.S. 599-1862-

Pg 15

Marbury v. Madison, 5 U.S. 137-1803-

Pg 21

McClaine v. Rankin, 197 U.S. 154-1904-

Pg 13

M'Cluny v. Silliman, 28 U.S. 270-1830-

Pg 17

Page iii of iv

Page iv of iv

O'Sullivan v. Felix, 233 U.S. 318-1914-

Pgs 12, 13

Owens v. Okure, 488 U.S. 235, 236-1989-

Pgs 10, 11

Plessy v. Ferguson, 163 U.S. 537-1896-

Pg 04

Robinson v. Campbell, 16 U.S. 212-1818-

Pg 20

Scott v. Sandford, 60 U.S. 393-1857-

Pg 04

United States v. Masel, 563 F.2d 322-7TH CIR-

Pg 06

Wayman v. Southard, 23 U.S. 1-1825-

Pg 18

West Coast Hotel Co. v. Parrish, 300 U.S.-

Pg 04

Wilson v. Garcia, 471 U.S. 261- 1985-

Page iv of iv

Pgs 10, 11

BRIEF
INTRODUCTION
Movants Tobie as TOBIE JENKINS and William as WILLIAM JENKINS whose
Son’s death was caused by an LEO’s improper deployment of a Taser while a rifle
was being held by Son Jayson in or very near his mouth, herein bring forth this
Writ of Certiorari.
Movants urge this Court to review its unverifiable powers which have thus far
allowed it to Legislate alleged Legislative “voids” found in USCS 42 § 1983.
unverified powers such as:
1. This Court’s self-granted power to interpret Congressional intent from
unwritten Congressional Legislation.
2. This Court’s self-granted power to merge past, present and future State
Legislation with USCS 42 § 1983 in the absence of explicit Constitutional Authority
and in the absence of explicit Congressional Legislation authorizing such
Legislative mergers.
3. This Court’s self-granted power to close The District Court’s Door to Movant’s
Federal Civil Rights violation which ended in death, a closure exercised pursuant to
State Legislation.

Page 1 of 25

JURISDICTION
1. This Court has jurisdiction over The 10th Circuit’s January 29, 2019 Order which
denied This Family’s Right to prosecute Federal Civil Rights violations.
2. This Court has jurisdiction over Movants questions which involve unverifiable
Judicial Power to make USCS 42 § 1983 subordinate to State Legislation.
3. This Court has jurisdiction over its claims that USCS 42 § 1983 is inoperative in
Colorado, unless restricted by Colorado’s Statute of Limitations.

STATEMENT OF THE CASE
Movants have been shut out of The Federal Court pursuant to Judiciary made Law,
as opposed to Constitutional or Congressional Law, making such shut out unlawful.

MOVANTS’ UNDERSTANDING OF USCS 42 $ 1983
1. USCS 42 § 1983 is not within the jurisdiction of any State.
2. USCS 42 § 1983’s purpose is to interpose the Federal Courts between the States
and The People, as guardians of The People's Federal Rights and protect The People
from unconstitutional action under color of state law.
3. USCS 42 § 1983 was not written to be constrained by The States.
4. USCS 42 § 1983 has not been deemed inoperative as written.
5. USCS 42 § 1983 has been rewritten by This Court by making it operative only if
subservient to The State’s Legislatures’ will.
Page 2 of 25

6. USCS 42 § 1983 now contains Legislature from Fifty States and Territories, not
because The People willed it through their Representatives, but because This
Supreme Court willed it through Judicial Legislation.
7. USCS 42 § 1983 has not been rewritten by Congress, it has been rewritten by
This Supreme Court, effectively taking away The People’s Right to hold State
Actors accountable.

MOVANTS’ CONTENTIONS
• Movants contend The Power to restrict Americans’ time for filing a Federal Civil
Rights violation rest with Congress, not with The Judicial Branch.
• This Court’s conclusion that The States’ Statutes of Limitations are binding on
USCS 42 § 1983 Actions is an indirect grant of power by This Court to The States, a
power not granted to This Federal Judiciary.
• Movants contend it is ludicrous to claim The 42nd Congress and President Ulysses
S. Grant, who requested The Enforcement Act of 1871. intended for Ku Klux Klan
infested States to restrict Americans’ access to The Federal Courts.
ADDITIONALLY:
• Movants further contend This Supreme Court has Power to interpret written
Federal Law not what it deems “void”, unwritten or what it deems missing in a
Federal Act.

Page 3 of 25

•

Movants further contend This Supreme Court does not have The Power to legislate
as it has done by merging The States’ Statutes of Limitations with Federal Statute
USCS 42 $ 1983.

•

Movants further contend per USCS 42 § 1988 there is nothing in USCS 42 § 1983 as
written which makes USCS 42 § 1983 “not adapted to the object”of Federal Civil
Rights Violations, or which makes it as written “deficient in the provisions
necessary to furnish suitable remedies and punish offenses aerainst law”.

•

Movants further contend USCS 42 § 1983, unlike USCS 42 § 1986 which has a oneyear Limitation, was written without limitations and must therefore be read and
understood as being complete within Congress’ original intent.

MOVANTS’ CONCLUSION
It cannot be said The Remedy sought pursuant to The Enforcement Act of 1871
is of or is situated in any State or that such Remedy is part of any State Forum,
therefore it cannot be said The States’ Statutes can restrict any Action brought to
Federal Court under USCS 42 §1983.
Unlike Scott v. Sandford, 60 U.S. 393-1857. in which Justice Taney’s majority
fueled and/or caused The Civil War, and unlike Plessv v. Ferguson. 163 U.S. 5371896 in which Justice Brown’s majority revived The Ku Klux Klan and The Slave
Codes (Black Codes/Jim Crow laws adopted by Nazi Germany to discriminate Jews)
and unlike West Coast Hotel Co. v. Parrish. 300 U.S. 379-1937 in which one single
Page 4 of 25

Justice Owen J. Roberts’ political vote (a vote which favored Roosevelt’s New Deal
and which prevented Roosevelt from exercising his threat to increase the number of
Justices from 9 to 15, single handedly established The unconstitutional minimum
wage law which remains today, there is no one Justice or One Supreme Court Case
responsible for the erosion of USCS 42 S 1983 and Americans’ power to individually
prosecute State Officials for Trespass as intended by The Enforcement Act of 1871,
such erosion is the product of an invented Doctrine which says USCS 42 § 1983 is
inoperative as written but made operative by Judicial Amendments.
USCS 42 § 1983 appears to have been eroded due to a Judicial belief which
dictates that USCS 42 § 1983 requires The States’ Statutes of Limitations, however
such Judicial belief does not apply to The Criminal Versions of Civil Rights
Trespasses which proves the argument that prosecutions stale after a number of
years is an invalid proposition.
The following Congressional Statutes of Limitations can be borrowed by The U.S.
Supreme Court if it is true USCS 42 §1983 is inoperative without a statute of
limitationsa) USCS 18 § 242. Deprivation of rights under color of law
(deprivation of civil rights under color of law where death results)
The deprivation of Movants’ Son’s Civil Rights were under color of law and such
deprivation resulted in death, however because Movants and Victim are civilians,

Page 5 of 25

USCS 18 § 242’s unlimited Statute of Limitations is inapplicable and instead a
ridiculous Twenty Four Month window is imposed, then adding insult to injury, the
24 Month restriction is not Federal but is from The Trespasser’s Employer State.
b) USCS 18 § 351(e) (assaulting a Member of Congress)
Under this Statute, if a Congressman (a public employee) is assaulted, such
assault can be prosecuted within Eight Years and carries a $10,000 Fine and/or a 10
year Prison Time.
In 1977 The 7th Circuit under United States v. Masel. 563 F.2d 322 in which a
man was rightfully convicted for spitting on a Member of Congress concluded:
“The state definition does not control the meaning of terms used in the [**6l federal
statutes. ”
Are The Federal Courts exercising a double standard, one for “public employees”
and another for The Citizens? The Record says yes.
If The States cannot control the meaning of a word in a Federal Statute, how can
The States control the meaning of The Statute of Limitations which does not even
exist in The Enforcement Act of 1871?
Many Americans believe The Three Branches of The Federal Government have
become The Three Families of The Federal Mafia, ruled by men not by law.

Page 6 of 25

REMEDY DEMANDED
1. For 42 USC 1983 to be upheld operative as written (no statutes of limitations) or
2. For 42 USC 1983 to be held to the same Statute of limitations as assaults on
Members of Congress
(8 year Statute of Limitations) or
For 42 USC 1983 to be declared inoperative as written so Congress can rewrite it.

HISTORY OF THE ALLEGED POWER TO SUBJECT USCS 42 § 1983 TO STATE
LEGISLATION
1. 1788 - FEDERAL CONSTITUTION Ratified
Per This Charter The Power to write Law is vested in Congress alone, not in The
Judiciary.
2. 1789 - JUDICIARY ACT OF 1789
This Judicial Act contains SEC. 34 which reads:
“SEC. 34. And be it further enacted, That the laws of the several states, except
where the constitution, treaties or statutes of the United States shall otherwise
require or provide, shall be regarded as rules of decision in trials at common law in
the courts of the United States in cases where they avvlvf
This Section has been alleged by Supreme Court Justices as authorizing The
Justices to add Statutes of Limitations from The States to existing Federal

Page 7 of 25

Legislation where ever The Supreme Court deems such Statute of Limitations as
missing and required. Such interpretation undoubtedly alleges a partnership in
which Congress writes what it can and The Supreme Court completes it with State
Legislation, a partnership understood by most Americans to be unconstitutional and
ludicrous.
3. 1866
USCS 42 § 1988. Proceedings in vindication of civil rights enacted by The 39th
Congress which reads as relevant to this Writ:
“(a) Applicability ofstatutory and common law.
The jurisdiction in civil and criminal matters conferred on the district and circuit
courts [district courts] by the provisions of this Title, and of Title "CIVIL RIGHTS,"
and of Title "CRIMES, "for the protection of all persons in the United States in their
civil rights, and for their vindication, shall be exercised and enforced in conformity
with the laws of the United States, so far as such laws are suitable to carry the
same into effect! but in all cases where they are not adapted to the object, or are
deficient in the provisions necessary to furnish suitable remedies and punish
offenses against la w. the common law, as modified and changed bv the constitution
and statutes of the State wherein the court havingjurisdiction ofsuch civil or
criminal cause is held, so far as the same is not inconsistent with the Constitution
and laws of the United States, shall be extended to and govern the said courts in the
trial and disposition of the cause, and, ifit is ofa criminal nature, in the infliction of
Page 8 of 25

punishment on the party found guilty. ”
•

Nothing in this Section authorizes The Supreme Court to add anything to a
Congressional Act.
This Section, when read as written, allows for State Law to assist Federal Judges in
specific Causes which may not have been addressed by Congress! this Section does
grant blanket authority to classify all Actions before being heard as falling within
The State’s Statutes or common law. The “Applicability” of The States’ Statutes of
Limitations have nothing to do with The District Courts adjudging 42 USC 1983
Causes presented to them, however This Courts adoption of The States Statutes of
Limitations effectively deter Prosecution of State Actors.

4. 1871
42 USC 1983 Civil action for deprivation of rights, a codification of The
Enforcement Act of 1871 (17 Stat. 13) also known as the Civil Rights Act of
1871. Force Act of 1871. Ku Klux Klan Act. Third Enforcement Act, and Third Ku
Klux Klan Act“Every person who, under color ofany statute, ordinance, regulation, custom, or
usage, ofany State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation ofany rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
Page 9 of 25

against a judicial officer for an act or omission taken in such officer's judicial
capacity, injunctive reliefshall not be granted unless a declaratory decree was
violated or declaratory relief was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of Columbia shall be
considered to be a statute of the District of Columbia. ”
• This Act confers no Power to the Judiciary allowing it to add State Legislation to
existing Federal Legislation.

JUDICIAL EVIDENCE:
In attempting to verify This Court’s Power to fill legislative alleged “voids” in
USCS 42 § 1983, Movants have found no such verification but have instead found a
series of questionable Decisions which have gradually erased The Separation of
Powers between Congress and The Supreme Court.
As late as 1989, The Federal Courts are operating on a determination that they
“should borrow the state statute oflimitations for personal injury actions” a
determination which is misleading because Federally protected “personal injuries”
are not State protected “personal injuries” or State Claims.
Owens v. Okure. 488 U.S. 235, 236-1989:
“In Wilson v. Garcia, 471 U.S. 261 (1985). we held that courts entertaining claims
brought under 42 U. S. C. $ 1983 should borrow the state statute oflimitations for

Page 10 of25

personal injury actions. ”,
Justice Marshall then claims “we determined that 42 U. S. C. § 1988 requires courts
to borrow and apply to gU $ 1983 claims the one most analogous state statute of
limitations. Ibid. See id., at 275”, however USCS 42 § 1988 contains no such
requirement, but merely authorizes The Courts to consider Local Law in adjudging
a Case, § 1988 says nothing about closing The Court’s Door on Litigants pursuant to
State Law.
1. 1989-Per 1989 US SC'Owens v. Okure, 488 U.S. 235, 236. a case addressing which
of The State’s Statute of Limitations was applicable to a Plaintiff’s USCS 42 1983
Action, These Justices claimed to have allegedly received their power to make
USCS 42 § 1983 operable pursuant to State Legislation from The Justices in Wilson
v. Garcia. 471 U.S. 261 (1985).
“In Wilson v. Garcia, 471 U.S. 261 (1985), we held that courts entertaining claims
brought under 42 U. S. C. $ 1983 should borrow the state statute oflimitations for
personal injury actions. ”
•

Here Justice Marshall adjudicates Judicial Legislation as The borrowing of State
Legislation.

2. 1985 Per 1985-US SC-Wilson v. Garcia, 471 U.S. 261. a case addressing
applicability of a State’s Statute of Limitations to an Action brought under USCS 42
1983. These Justices claimed to have allegedly received their power to make USCS

Page 11 of 25

42 § 1983 operable pursuant to State Legislation from The Justices in Board of
Regents v. Tomanio, 446 U.S. 478, 483 (1980)
“The Reconstruction Civil Rights Acts do not contain a specific statute oflimitations
governing §_1983 actions ■■ "a void which is commonplace in federal statutory law."
Board ofRegents v. Tomanio, 446 U.S. 478, 483 (1980).”
Here Justice Stevens claims The Justices have The Power to declare a “void” in
Federal Legislation and then fill their alleged “void” with State Legislation,
effectively Legislating from The Bench.
3. 1980-Per 198Q-US SOBd. of Regents v. Tomanio 446. a case addressing applicability
of a State’s Statute of Limitations to an Action brought under USCS 42 § 1983,
These Justices allegedly received their power to make USCS 42 § 1983 operable
pursuant to State Legislation from The Justices in 1914-US SC-O’Sullivan v. Felix.
233 U.S. 318:
“Congress did not establish a statute oflimitations or a body of tolling rules
applicable to actions brought in federal court under $ 1983 - a void which is
commonplace f**l 7951 in federal statutory law. When such a void occurs, this
Court has repeatedly "borrowed" the [****12] state law oflimitations governing an
analogous [*484] cause ofaction. Limitation borrowing was adopted for civil rights
actions filed in federal court as early as 1914, in O'Sullivan v. Felix, 233 U.S. 318. ”
•

Here Justice Rehnquist alleges The Justices have The Power to declare a “void” in
Federal Legislation and then fill their alleged “void” with State Legislation.
Page 12 of 25

4. 1914-Per 1914-US SC~Q’Sullivan v. Felix, 233 U.S. 318, a case addressing
applicability of a State’s Statute of Limitations to an Action brought under USCS 42
§1983. These Justices claimed to have allegedly received their power to make USCS
42 § 1983 operable pursuant to State Legislation from The Justices in 1904 US SC~
McClaine v. Rankin. 197 U.S. 154:
“That the action depends upon or arises under the laws of the United States does
not preclude the application of the statute oflimitations of the State is established
beyond controversy by cases cited by the Circuit Court and by McLaine v. Rankin.
197 U.S. 154. 158.”
•

Here Justice Mckenna claims The Justices are not restricted from subjecting
Federal Legislation and Americans to State Legislation even though such
restriction does not exist either in The Constitution or in The Civil Rights Act.

5. 1904-Per 1904 US SC-McClaine v. Rankin, 197 U.S. 154. a case addressing
applicability of a State’s Statute of Limitations to an Action involving an
assessment levied by the Comptroller of the Currency by virtue of the National
Bank Act, These Justices claimed to have received their power to make 42 U. S. C. §
1983 operable pursuant to State Legislation from The Justices in
1895'US SC'Camnbell v. Haverhill. 155 U.S. 610“It is conceded that, in the absence ofanv provision of the act of Congress creatinethe liability fixing a limitation of time for commencing actions to enforce it, the
statute oflimitations of the particular State is anvlicable. Rev. Stat. § 721',
Page 13 of 25

Campbell v. Haverhill [***7] , 155 U.S. 610.”
•

Here Justice Fuller claims “it is conceded”This Court has The power to declare “the
absence”of a Statute of Limitations and The power to fill in that absence with The
States’ Statute of Limitations.

•

There is no record of Congress making such concession.

6. 1895-Per 1895'US SC-Camnbell v. Haverhill. 155 U.S. 610. a case addressing
applicability of a State’s Statute of Limitations to an Action involving a Patent
Infringement brought under a Federal Law, These Justices allegedly received their
power to make Federal Patent Law operable pursuant to State Legislation from The
Justices in Bauserman v. Blunt. 147 U.S. 647:
“The case then is reduced to the naked question whether the statutes oflimitations
of the several States apply to actions at law for the infringement ofpatents. The
question has arisen in a large number of cases, and the Circuit Courts have been
nearly equally divided. This is the first time, however, that it has been directly
presented to this court. ”
“The argument in fa vor of the applicability ofstate statutes is based upon Revised
Statutes.

721. providing that "the laws of the several States, except, etc. . . . shall

be regarded as rules of decision in trials at common law, in the courts of the United
States, in [****,8] cases where they apply."
“That this section embraces the statutes oflimitations of the several States has
been decided by this court in a large number ofcases, which are collated in its
Page 14 of 25

opinion in Bauserman v. Blunt 147 U.S. 647. ”
•

Here Justice Brown expanded, without verifiable Constitutional or Congressional
Authority The Judiciary’s power to amend Federal Law and make such law subject
to State Law.

7. 1893-Per 1893~US SC~Bauserman v. Blunt. 147 U.S. 647. a case apparently brought
to Federal Court under State Law involving a Promissory Note and Property in the
State of Kansas, These Justices claimed their power to follow State Law and State
Statute of Limitations from The Justices in
1862 US SC-Leffingwell v. Warren. 67 U.S. 599 who cited as their authority to
amend Congressional Acts on The “34th section of the Judiciary Act of 1789.”
“In Leffingwell v. Warren, 2 Black, 599, 603, Mr. Justice Swavne. speaking for the
court, laid down, and supported by references to earlier decisions, the following
propositions•' f*654l "The courts of the United States, in the absence of
legislation [***319l upon the subject by Congress. recosnize the statutes of
limitations of the several States, and give them the same construction and effect
which are given by the local tribunals. They are a rule of decision under the 34th
section of the Judicial Act of1789. ”
•

Here Justice Gray, due to The Fact The Case before it involved a State issue, The
Court correctly asserted its power to adjudge The Cause according to State Case
Law and The State’s Statute of Limitations.

8. 1862-Per 1862 US SC-Leffingwell v. Warren. 67 U.S. 599. a case brought under
Page 15 of 25

State Law dealing with Land sold for taxes, The Justices claimed to have received
their powers to employ The States Statutes of Limitations from the 34th section of
the Judiciary Act of 1789:
“The Courts of the United States, in the absence oflegislation upon the subject by
Congress, recognize the Statutes ofLimitations of the several States, and give them
the same construction and effect which are given by the local tribunals. They are a
rule of decision under the 34th section of the Judicial Act ofl 789. ”
•

Such Section referenced reads;
“SEC. 34. And be it further enacted, That the laws of the several states, except
where the constitution, treaties or statutes of the United States shall otherwise
require or provide, shall be regarded as rules of decision in trials at common la w in
the courts of the United States in cases where they apply, "and instructs The Courts
in the same way USCS 42 § 1988 instructs to make its judgments in conformity
with the laws of the United States, but when dealing with subjects other than those
of Federal Jurisdiction to follow the State Law and common law, however when the
remedy is deficient in Federal Law, the Judges can also look to State Law and
common Law for remedy.

•

Neither SEC. 34 nor § 1988. instruct the Courts to supersede Federal Law with
State Law as This Court has done with USCS 42 § 1983.

•

Neither the term “statute(s) of limitations” nor anything authorizing The Supreme
Court to fill in a “void” in in Congressional Acts with Legislation from other
Page 16 of 25

jurisdictions appears in The Judiciary Act of 1789 or in The Enforcement Act of
1871.
9. 1830-Per 183Q- M'Clunv v. Silliman, 28 U.S. 270, a case against a Federal Officer
addressing Land in Ohio, These Justices claimed to have received their power to
employ The State’s Statute of Limitations from the 34th Section of the Judicial Act
of 1789:
“In the thirty-fourth section of the judiciary act of1789, it is provided, "that the
laws of the several states, except where the [***14] constitution, treaties, or
statutes of the United States shall otherwise require or provide, shall be regarded
as rules of decision in trials at common law, in the courts of the United States, in
cases where they apply "
Under this statute, the acts oflimitations of the several states, where no special
provision has been made by congress, form a rule of decision in the courts of the
United States, and the same effect is given to them as is given in the state courts. ”
•

Here The Justices addressed the Case as a State issue operating under State Law
with all parties submitting themselves to The Jurisdiction of Ohio, thereby
justifying The use of That State’s Statute of Limitations pursuant to The 34th SEC.
“The decision in this cause depends upon the construction of the statute of Ohio,
which prescribes the time within which certain actions must be brought.
It is a well settled [*277l principle, that a statute oflimitations is the law of the
forum, and operates upon all who submit themselves to its jurisdiction. ”
Page 17 of 25

•

Here The Justices make it clear that The State’s Statute of Limitations apply when
one submits to The Jurisdiction of That State, however USCS 42 § 1983 is a Federal
Forum and one cannot be required to submit to The State forum in order to access
The Federal Forum.

10. 1825-Per 1825 US SOWavman v. Southard. 23 U.S. 1. a case addressing The
execution of a Federal Court’s Judgment which was challenged by Defendant
claiming that Congress had no power over executions on judgments, The Justices of
This Court claimed “the 34th section of the Judicial Act of1789.” has “no application
to the practice of the Court” a comprehension more in line with The Federal
Constitution and a Federal Judge’s discretion to adopt Local Law as a guide in
aiding The Court in reaching its Judgment:
“The constitution concludes its enumeration of granted powers, with a clause
authorizing Congress to make all laws which shall be necessary and proper for
carrying into execution the foregoing powers, and all other powers vested by this
constitution in the government of the United States, or in any department or officer
thereof. The judicial department is invested with jurisdiction in certain specified
cases, in all which it has power to render judgment.
That a power to make laws for carrying into execution all the judgments which the
judicial department has power to pronounce, is expressly conferred bv this clause.
seems to be one of those plain propositions which reasoning [***28] cannot render
plainer. The terms of the clause, neither require nor admit ofelucidation.
Page 18 of 25

The Court, therefore, will only say, that no doubt whatever is entertained on the
power of Congress over the subject. ”
“The 34th section, then, has no application to the practice of the Court, or to the
conduct ofits officer, in the service ofan execution. ”
“The 17th section of the Judiciary Act of1789, c. 20. enacts, "That all the said
Courts shall have power" "to make and establish all necessary rules for the orderly
conducting business in the said Courts, provided such rules are not reousrnant to
the laws of the United States,'"
“It will not be contended that Congress can delegate to the Courts, or to any other
tribunals, powers which are strictly and exclusively legislative. [*43] But Congress
may certainly delegate to others, powers which the legislature may rightfully
exercise itself.”
“The difference between the departments undoubtedly is, that the legislature
makes, the executive executes, and the judiciary construes the law,' but the maker
of the law may commit somethinsr to the discretion of the other departments, and
the precise boundary of this power is a subject of delicate and difficult inquiry, into
which a Court will not enter unnecessarily.”
“The State assemblies do not constitute a legislative body for the Union.
They possess no portion of that legislative power which the constitution vests in
Congress, and cannot receive it by delegation. ”
“It seems not much less extravagant, to maintain, that the practice of the Federal
Page 19 of 25

Courts, and the conduct of their officers, can be indirectly regulated by the State
legislatures, by an act professing to regulate [*50l the proceedings of the State
Courts, and the conduct of the officers who execute the process of those Courts.
It is a general rule, that what cannot be done directly from defect ofpower, cannot
be done indirectly. ”
•

Here Justice Marshall makes it clear that those matters of Federal Jurisdiction are
of no concern to the State, The Court cannot be ruled by State Procedures.

•

Here Justice Marshall clarifies “the 34th section, then, has no application to the
practice of the Court" therefore it cannot be said the 34th Section of The 1789
Judiciary Act has any bearing on The Enforcement Act of 1871.

11. 1818-Per 1818 US SC-Robinson v. Campbell. 16 U.S. 212. a case addressing land on
the border of Virginia and Tennessee and ejecting Claimant from the same, The
Justices of This Court settled The Case according to The 34th SEC. of The 1789
Judiciary Act and
“The general rule is, that remedies in respect to real estates are to be pursued
according to the law of the place where the estate is situated. ”
•

Here Justice Todd correctly employs The State’s Statute of Limitations because both
The Law and The Remedy are of The State forum.

•

It cannot be said The Law or The Remedy sought pursuant to The Enforcement Act
of 1871 is of or is situated in any State or is part of any State Forum, therefore it
cannot be said The Statutes of Limitations of The States are applicable to actions
Page 20 of 25

under USCS 42 §1983.
12. 1803-Per 1803'US SC Marburv v. Madison. 5 U.S. 137. a case addressing The
Executive Power over its Officers being beyond the reach of The Court, but more
important a case which set The Supreme Court as The One who Interprets The
Law. Although this Case did not deal with USCS 42 §1983, it dealt with
foundational issues which Movants believe are still upheld by This Court and by
This Country.
a) “It is emphatically the province and duty of the judicial department to sav what the
law is. Those who apply the rule to particular cases, must ofnecessity expound and
interpret that rule. If two laws conflict with each other, the courts must decide on
the operation of each!
•

These words from Justice Marshall must be understood as referencing existing Law
not Law existing in a “void” as claimed by later Justices.

•

Justice Marshall makes the following points which have not changed since 1803:

b) “The very essence of civil liberty certainly consists in the risrht of every [***47]
individual to claim the protection of the laws, whenever he receives an injury. One
of the first duties of government is to afford that protection. In Great Britain the
king himselfis sued in the respectful form ofa petition, and he never fails to comply
with the judgment ofhis court. ”
•

It must therefore be conclusive that remedy sought pursuant to a Federal Law must
be found in The Federal Law and only the maker of such Law can expand or
Page 21 of 25

constrict such Law. For The US Supreme Court to take it upon itself to constrict
USCS 42 §1983 to the will of The Villain which in a USCS 42 §1983 Action would be
The States’Actors is contrary to Justice Marshall.
c) “The government of the United States has been emphatically termed a government
of laws, and not of men. It will certainly cease to deserve this high appellation, if
the la ws furnish no remedy for the violation ofa vested legal right.
•

It is inarguable The Enforcement Act of 1871 is a collection of legal rights, therefore
all remedies including access to the Courts must be found within The Enforcement
Act of 1871 not within The States.
The fact Congress did not write a time limit into this Act must be understood in
favor of the beneficiary to mean The Act was not time restricted, or controlled by
The Defendant State.

d) “But where a specific duty is assigned hv law, and individual rights depend upon
the performance of that duty, it seems equally clear that the individual who
considers himself injured, has a right to resort to the laws of his country for a
remedy.”
•

Per Justice Marshall the remedy lies with The Law maker, therefore USCS 42
§1983’s remedy must be within The Realm of Congress, not The States.

e) “The question whether a right has vested or not, is, in its nature, judicial, and must
be tried by the judicial authority. ”
•

It is undeniable The Enforcement Act of 1871 vested rights to be exercised via
Page 22 of 25

USCS 42 §1983. and such section contains no “judicial authority” allowing The
Courts to restrict such law according to The States’ whims.

IF USCS 42 §1983 REQUIRES A STATUTE OF LIMITATIONS. SUCH
LIMITATIONS CAN BE BORROWED FROM FEDERAL LAW
USCS 42 §1983 cannot be said to be inoperative without a Statute of Limitations
because it has not been rewritten by Congress, however if The Supreme Court has
legal authority to adjudge USCS 42 §1983 inoperative with power to make it
operative by borrowing a Statute, it must borrow from those Statutes existing in
The Federal Forum.
a) The Statute of Limitations for USCS 18 § 351(e) (assaulting a Member of Congress)
can be used if the alleged void in USCS 42 §1983 is required and allowed to be filled
by The Judiciary instead of Congress.
b) Per USCS 18 § 3286 Extension of statute of limitation for certain terrorism offenses
{a>:
“(a) Eisrht-vear limitation. Notwithstanding section 3282 [18 USCS § 3282]. no
person shall be prosecuted, tried, or punished for any noncapital offense involving a
violation ofany provision listed in section 2332b(g)(5)(B) 118 USCS
2332b (s)(5)(B)1. or a violation ofsection 112, 351(e). 1361, or 1751(e) of this title [18
USCS $ 112. 352(e). 1361. or 1751(e)!. or section 46504, 46505, or 46506 of title 49,

Page 23 of 25

unless the indictment is found or the information is instituted within 8 years after
the offense was committed. Notwithstanding the preceding sentence, offenses listed
in section 3295 [18 USCS $ 3295] are subject to the statute oflimitations set forth
in that section."
•

The criminal Statute of Limitations for prosecuting an assault on a Member of
Congress is Eight years, while an assault on a Citizen by a Colorado State public
employee only gives The Citizen a 2 year window within which to prosecute, using
The Federal Statutes of Limitations for Assault would create uniformity across the
States and would do away with much unnecessary Litigation.
It cannot be said, using a State’s Statute of Limitations is more Constitutional than
using The Federal Law’s Criminal Statutes of Limitations which mirror
Enforcement Act of 1871 Laws.

> It is therefore undeniable, references to Statutes of Limitations exist within The
Federal system which can be used to provide a uniform time period for all
Americans as opposed to the current unjust inequality imposed not by Congress but
by Justices who appear to have either purposely or erroneously limited this very
powerful USCS 42 § 1983 to the detriment of Americans and in favor of The State
Actors, contrary to The 42nd Congress’ intent and Contrary to President Grant’s
needs.

END OF BRIEF
Page 24 of 25

TOBIE JENKINS and WILLIAM JENKINS
1207 BRIARHOLLOW LANE
HIGHLANDS RANCH-CO-80129-U.S.A.
303-229-7609 dinojenkins@comcast.net
PRO SE LITIGANTS

Page 25 of 25

